Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     DISCLOSURE AND
 ACCOUNTING OF PROTECTED
 RECORDS BY CMS BETWEEN
      2006 AND 2011




                    Daniel R. Levinson
                     Inspector General

                      January 2014
                     OEI-09-11-00430
EXECUTIVE SUMMARY: Disclosure and Accounting of Protected Records by
CMS Between 2006 and 2011
OEI-09-11-00430

WHY WE DID THIS STUDY

The Centers for Medicare & Medicaid Services (CMS) maintains millions of records
containing financial and health-related information. Inappropriate disclosures of records or
data maintained in a system of records (SOR) can result in loss of privacy and fraudulent
activities. The Privacy Act of 1974 (Privacy Act) governs Federal agencies’ collection, use,
and dissemination of individuals’ records maintained in an SOR. CMS maintains SORs, and
its disclosures of records must be consistent with the Privacy Act. Further, the Privacy Act
requires CMS to implement safeguards that protect records maintained in an SOR and to
account for any disclosures. Among other things, CMS uses a data use agreement (DUA) to
ensure its disclosures are in compliance with the Privacy Act. A DUA is the legally binding
agreement that contains the written terms and conditions that govern each disclosure. Entities
are required to submit a DUA and DUA-related documents to CMS prior to the disclosures.

HOW WE DID THIS STUDY

We reviewed data requests approved or renewed by CMS between September 2006 and
August 2011. We limited our review to approved data requests from health-related SORs. We
used the DUA tracking number generated by the Data Agreement and Data Shipping Tracking
System (DADSS) to identify our population of approved requests. We selected a simple
random sample of 150 approved requests using the DUA tracking number. We interviewed
CMS staff and reviewed SOR notices, CMS policies, and documents in the user agreement
files, i.e., the DUA and/or DUA-related documents. We project our findings to our population.

WHAT WE FOUND

For at least 98 percent of all approved data requests in our sample, CMS’s disclosures of
records were consistent with the routine uses identified in the SOR notices. Five percent of all
data files disclosed by CMS were not requested in the DUAs or updated DUAs. CMS did not
have the DUAs on file for 33 percent of all user agreement files. The absence of a DUA may
limit CMS’s ability to verify what data were requested. For 29 percent of the user agreement
files, CMS extended entities’ use of data without documentation of requests for extensions.
Fifteen percent of DUAs were both expired and not closed properly by the entities.

WHAT WE RECOMMEND

We recommend that CMS (1) develop a process to ensure that the data requested are the ones
disclosed to the entity; (2) ensure that the DUA and DUA-related documents are in a user
agreement file; (3) ensure that entities submit the required documents to properly close their
DUAs; (4) use a standardized, documented process for requesting and approving DUA
extensions; and (5) ensure that expiration dates are consistent between the DUA and DADSS.
CMS concurred with all five recommendations. In its agency response, CMS stated that it was
replacing DADSS with the Enterprise Privacy Policy Engine, an electronic information system
designed to provide a 100-percent-traceable record of CMS’s data disclosures.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................8 

Findings......................................................................................................12 

           For at least 98 percent of all approved data requests, CMS’s 

           data disclosures were consistent with the routine uses ..................12 

           CMS disclosed data files not requested in the DUAs or updated                                          

           DUAs .............................................................................................12 

           One-third of all user agreement files did not include the DUAs ...13 

           CMS granted DUA extensions without documentation of 

           requests from the entities ...............................................................14 

           Fifteen percent of all DUAs were expired and not closed 

           properly ..........................................................................................14 

Conclusion and Recommendations ............................................................15 

           Agency Comments and Office of Inspector General Response.....18 

Appendixes ................................................................................................19 

           A: Point Estimates and Confidence Intervals ...............................19 

           B: Agency Comments ...................................................................21 

Acknowledgments......................................................................................23 

                  OBJECTIVES
                  1.	 To determine whether the Centers for Medicare & Medicaid Services’
                      (CMS) disclosure of individuals’ records is consistent with systems of
                      records (SOR) notices required by the Privacy Act.
                  2.	 To assess CMS’s accounting of individuals’ records disclosed to
                      entities between 2006 and 2011.

                  BACKGROUND
                  CMS maintains millions of records containing financial and health-related
                  information. Consistent with Federal laws, CMS may disclose the records
                  to entities for certain uses without an individual’s prior consent. A record
                  is any item, collection, or grouping of information about an individual
                  maintained by an agency.1 This information includes, but is not limited to,
                  financial transactions and medical history that contains a name or other
                  unique identifiers.2 Appropriate safeguards are needed to ensure that the
                  records are disclosed appropriately and that CMS accurately accounts for
                  those disclosures. Inappropriate disclosures can result in loss of privacy
                  and fraudulent activities, such as medical identity theft and inappropriate
                  billing.
                  The Privacy Act of 1974
                  The Privacy Act of 1974 (Privacy Act) governs the collection, use, and
                  dissemination of individuals’ records maintained in any SOR by Federal
                  agencies, such as those within the Department of Health and Human
                  Services (HHS).3 An SOR is a group of records under the control of an
                  agency from which information is retrieved using an individual’s name or
                  other unique identifier.4 The Privacy Act prohibits Federal agencies from
                  disclosing a record from an SOR without the individual’s written request
                  or prior consent.5 However, a record may be disclosed without a written
                  request or prior consent for, among other things, the following:
                       	 to agency officers and employees who have a need for the record
                          in the performance of their duties,


                  1
                    5 U.S.C. § 552a(a)(4), 45 CFR § 5b.1(h).
                  2
                    Ibid. Other unique identifying information can include personally identifiable 

                  information, such as a number, symbol, or other identifiers assigned to an individual.

                  3
                    5 U.S.C. § 552a.

                  4
                    5 U.S.C. § 552a(a)(5). HHS’s regulation implementing the Privacy Act excludes, 

                  among other things, records not retrieved by personal identifiers and papers maintained 

                  and discarded at the discretion of individual HHS employees. 45 CFR § 5b.1(n).

                  5
                    5 U.S.C. § 552a(b).



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)             1
                       	 for a routine use that is compatible with the purpose for which the
                          data were collected,
                       	 for statistical or research purposes,6 and
                       	 to another agency or government entity for civil or criminal law
                          enforcement activity pursuant to a written request.7
                  CMS SORs
                  CMS maintains SORs in accordance with the Privacy Act. CMS’s SORs
                  contain the records of millions of individuals, such as providers and
                  beneficiaries enrolled in Medicare, Medicaid, and the Children’s Health
                  Insurance Program. Examples of SORs maintained by CMS include the
                  National Claims History (NCH) file;8 Enrollment Database (EDB);9
                  Medicare Provider Analysis and Review (MEDPAR) file;10 and the
                  Provider Enrollment, Chain, and Ownership System (PECOS) database.11
                  The Privacy Act requires that CMS provide public notice in the Federal
                  Register about the existence of each SOR.12 Each SOR notice is to
                  include, among other things, a description of the individuals for whom the
                  records are collected and maintained and policies and practices regarding
                  storage, retrieval, retention, and disposal of the records and controls for
                  accessing them. Additionally, the SOR notice defines the appropriate
                  routine use and disclosure of the records, which includes the purposes for
                  which CMS collects and maintains records and the types of entities and
                  purposes for which CMS may disclose a record without an individual’s
                  prior consent.13




                  6
                    This requires adequate written assurances that the records will be used solely for
                  statistical or research purposes and that the records will be transferred in a form that is
                  not personally identifiable.
                  7
                    5 U.S.C. § 552a(b).
                  8
                    The NCH file maintains billing and utilization data on Medicare beneficiaries enrolled

                  in Parts A and B. 71 Fed. Reg. 67137 (November 20, 2006).

                  9
                    EDB maintains information on Medicare enrollment and is used primarily to administer 

                  the Medicare program. 73 Fed. Reg. 10249 (February 26, 2008). 

                  10
                     MEDPAR maintains Medicare beneficiary information on all services rendered during

                  a stay at an inpatient hospital and/or a skilled nursing facility. 71 Fed. Reg. 17470

                  (April 6, 2006). 

                  11
                     PECOS maintains information on Medicare provider and supplier enrollment, payment, 

                  and business history that may include reported exclusions, sanctions, or felonious 

                  behavior. 71 Fed. Reg. 60536 (October 13, 2006). 

                  12
                     5 U.S.C. § 552a(e)(4).

                  13
                     5 U.S.C. § 552a(b)(3). In general, disclosures of Privacy Act-protected records may

                  not be made without an individual’s prior consent. However, there are 12 exceptions, 

                  including 1 for routine uses identified in the SOR notice. 5 U.S.C. § 552a(b).



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)            2
                  CMS Disclosure of Records for Routine Use
                  CMS’s disclosure of records without prior consent must be consistent with
                  circumstances specified in the Privacy Act (e.g., disclosures consistent
                  with the routine uses identified in the SOR notices, disclosures for law
                  enforcement activity, or disclosures for statistical or research purposes)
                  and other applicable rules.14 CMS’s published routine uses include, but
                  are not limited to, maintaining, updating, and disseminating beneficiary15
                  and provider16 information, such as that used for research purposes;
                  supporting program-integrity-related activities of Medicare, Medicaid, or
                  the Children’s Health Insurance Program;17 and ensuring proper Medicare
                  or Medicaid enrollment and payments.18
                  CMS may disclose records to various types of entities for routine uses.
                  Examples of such entities are government agencies, which include HHS
                  employees19 and law enforcement; disproportionate share hospitals
                  (DSH);20 and individual or private sector researchers.21 CMS policy
                  requires that entities complete and submit documentation to CMS prior to
                  disclosing any records. Examples of such documentation include an
                  applicable data use agreement (DUA) and DUA-related documents.22
                  DUA. In most cases, CMS requires that entities requesting records from
                  an SOR (data) submit a DUA and other required documentation.23 A
                  DUA is the legally binding agreement24 that CMS uses to ensure its
                  disclosures are in compliance with the Privacy Act requirements. The


                  14
                     Other applicable rules may include the HHS Privacy Act regulations, 45 CFR pt. 5b; 

                  the Health Insurance Portability and Accountability Act of 1996 (HIPAA) Privacy Rule, 

                  45 CFR pt. 164, subparts A and E; and Office of Management and Budget rules 

                  governing the safeguarding of personally identifiable information.

                  15
                     73 Fed. Reg. 2257 (January 14, 2008). 

                  16
                     63 Fed. Reg. 40297 (July 28, 1998). 

                  17
                     71 Fed. Reg. 77759 (December 27, 2006). 

                  18
                     73 Fed. Reg. 10249 (February 26, 2008); 73 Fed. Reg. 11638 (March 4, 2008). 

                  19
                     HHS employees include those officers and employees who have a need for the record 

                  in performing their duties. 5 U.S.C. § 552a(b)(1).

                  20
                     A DSH is a hospital with a disproportionately large share of low-income patients. 

                  CMS, Medicare Disproportionate Share Hospital, ICN 006741. January 2013. A DSH 

                  may request its cost-reporting data to calculate its Medicare DSH reimbursement amount.

                  21
                     5 U.S.C. § 552a(b).

                  22
                     CMS, Policy for Privacy Act Implementation and Breach Notification, Document 

                  Number CMS-CIO-POL-PRIV01-01, p. 6. July 23, 2007. 

                  23
                     CMS, op. cit., p. 6. CMS requires contractors and external entities to enter into a DUA 

                  for the purpose of tracking disclosures. CMS does not require operational contractors, 

                  such as Medicare Administrative contractors, or third parties that have contracts with

                  operational contractors to enter into a DUA because their contracts include language 

                  covering compliance with other Federal privacy requirements. Operational contractors 

                  are those that perform the work of CMS by paying claims or processing enrollments. 

                  24
                     Ibid., p. 21.



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)              3
                  DUA contains the written terms and conditions that govern each
                  disclosure.25 CMS requires that the entity sign the DUA when requesting
                  data. Among other things, the DUA specifies the name of the person who
                  is requesting and responsible for the data; the data requested; the purpose
                  for which the data will be used; and the length of time the data will be
                  retained, known as the retention date.26 The DUA is the only document by
                  which CMS can verify what data an entity requested. The DUA is
                  necessary to ensure compliance with the accounting requirements under
                  the Privacy Act and the additional safeguards in CMS’s policy. Each DUA
                  may include a data request from more than one SOR. For example, an
                  entity may request data from the NCH and the EDB SORs in a single
                  DUA.
                  CMS has different DUAs for entities requesting data. The type of entity
                  and the type of data—data with specific direct identifiers or limited data—
                  determine which DUA an entity submits to CMS. Data with specific
                  direct identifiers contain beneficiary-specific or physician-specific
                  information. Limited data do not contain specific direct identifiers. All
                  these different DUAs specify what information CMS requires before
                  disclosing any data. These DUAs are:
                  	 A standard DUA, which is the default DUA that entities use to request
                     data with specific direct identifiers, such as data from the NCH or
                     EDB SORs.
                  	 A DSH DUA, which is used only by a DSH that is specifically
                     requesting its cost-reporting data.
                  	 A DUA for a limited data set, which is used by entities requesting data
                     that exclude specific direct identifiers, such as certain data from the
                     MEDPAR SOR.
                  	 A customized DUA, which may be used by a specific type of
                     government agency or government agency contractor, such as an
                     oversight or law enforcement agency.27
                  DUA-related documents. CMS often requires that entities requesting data
                  also submit other applicable DUA-related documents. These documents
                  could include, among other things, an updated DUA, a DUA addendum, a


                  25
                     CMS, Data Use Agreement: Agreement for Use of Centers for Medicare & Medicaid
                  Services Data Containing Individual Identifiers, Form CMS-R-0235. Accessed at
                  http://www.cms.gov/cmsforms/downloads/cms-r-0235.pdf. on Aug. 8, 2011.
                  26
                     CMS, Policy for Privacy Act Implementation and Breach Notification, Document
                  Number CMS-CIO-POL-PRIV01-01, p. 6. July 23, 2007; Ibid.

                  27
                     Examples of oversight or law enforcement agencies are HHS OIG and the Department 

                  of Justice (DOJ). 



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)        4
                  research study protocol,28 and institutional review board (IRB)
                  documentation.29 An updated DUA is used by an entity with an existing
                  DUA to request additional data. A DUA addendum is used if anyone other
                  than the requestor or custodian of the record will handle the requested
                  CMS data or if the original requestor and/or custodian are to be replaced
                  on the DUA.
                  CMS’s Data Request Review and Approval Process
                  CMS uses a data request review and approval process to ensure that data
                  are disclosed appropriately. The data request review and approval process
                  is initiated when an entity submits a DUA and DUA-related documents to
                  CMS. If CMS approves the data request, it signs the DUA acknowledging
                  the appropriateness of the entity’s data request. According to CMS
                  policies and procedures, the data request review and approval process
                  varies by the type of data requested by an entity and the type of entity
                  requesting the data. If CMS approves the data request, it also signs the
                  DUA.
                  Researchers. CMS requires researchers to submit their DUA and other
                  required DUA-related documents to the Research Data Assistance Center
                  (contractor).30 The contractor ensures that researchers submit all the
                  required documents prior to the disclosure of data. These required
                  documents include, but are not limited to, the DUA; IRB approval, when
                  necessary; proof of research funding; grant award letters; and research
                  study protocols. Depending on the kind of data they are requesting from
                  CMS, researchers may submit a standard DUA or a DUA for limited data
                  sets. The contractor reviews the documents for appropriateness and
                  completeness and forwards all the documents to CMS for review and
                  approval.
                  DSHs. DSHs requesting their cost-reporting data submit only DSH DUAs
                  when requesting data. DSHs request cost-reporting data maintained in
                  MEDPAR to calculate their Medicare DSH reimbursement amounts.
                  DSHs specify in the DSH DUAs the years for which they are requesting
                  MEDPAR data. CMS reviews the request and decides whether to approve
                  the DUA.
                  Government agencies. CMS requires that government agencies and
                  government agency contractors submit only their DUAs when requesting

                  28
                     A research study protocol outlines how a study will be conducted.

                  29
                     IRB documentation includes documentation that an IRB or a privacy board has 

                  approved a waiver of participant’s authorization of use or disclosure of information.

                  Research Data Assistance Center, IRB Evidence of Approval. Accessed at 

                  http://www.resdac.org/cms-data/request/materials/irb-evidence-approval on 

                  September 18, 2012.

                  30
                     CMS contracts with the Research Data Assistance Center to review DUAs from

                  researchers. 



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)              5
                  data. Examples of such entities are HHS, CMS, CMS contractors, DOJ,
                  HHS OIG, the Social Security Administration, and State Medicaid
                  agencies. Government agencies and government agency contractors
                  requesting data from CMS, such as data from NCH and PECOS, may use
                  a standard DUA or a DUA for a limited data set. In some case, a specific
                  type of government entity or government agency contractor—such as an
                  oversight or law enforcement agency, which has independent authority to
                  obtain the requested data—may use a customized DUA. The customized
                  DUA must indicate what information is being requested and for what
                  purpose the data are being requested. CMS policy does not exempt
                  oversight or law enforcement agencies from using a DUA.
                  CMS Accounting of Disclosed Records
                  The Privacy Act requires a Federal agency, such as CMS, to implement
                  safeguards that protect records maintained in an SOR and to account for
                  any disclosures.31 CMS is required to keep an accurate accounting of the
                  date, nature, and purpose of each disclosure.32 The accounting should also
                  include the name and address of the entity that received the data.33 CMS
                  must retain its accounting of the disclosure for at least 5 years after the
                  disclosure or for the life of the data, whichever is longer.34
                  CMS promulgated its Policy for Privacy Act Implementation and Breach
                  Notification to implement the requirements of the Privacy Act.35 CMS
                  policy states that disclosures “shall be limited to that which is necessary to
                  accomplish the intended purpose of an Agency activity” and that “CMS
                  shall limit the disclosures of personally identifiable information to no
                  greater amount of information than is reasonably necessary to achieve the
                  specific purpose of the disclosure.”36 In addition, CMS policy states, “A




                  31
                     5 U.S.C. § 552a(c).

                  32
                     5 U.S.C. § 552a(c)(1)(A).

                  33
                     5 U.S.C. § 552a(c)(1)(B).

                  34
                     5 U.S.C. § 552a(c)(2); Pursuant to CMS’s Records Schedule, Section I:

                  Administrative/Management Records, S: Data Use Agreements, 1b: Master Data Files. 

                  November 2012. Accessed at http://www.cms.gov/Regulations-and-
                  Guidance/Guidance/CMSRecordsSchedule/downloads/RecordsSchedule.pdf on

                  April 24, 2013. CMS notes that under General Records Schedules (GRS) 24.6(a) of the 

                  National Archives and Records Administration (NARA), accounting of disclosures 

                  should be retained for 6 years after the DUA is terminated or no longer needed for 

                  investigative or security purposes, whichever is later. NARA GRS, GRS 24.6(a). 

                  April 2010. Accessed at http://www.archives.gov/records-mgmt/grs/grs24.html on 

                  May 7, 2013. 

                  35
                     CMS, Policy for Privacy Act Implementation and Breach Notification, Document 

                  Number CMS-CIO-POL-PRIV01-01, p. 1. July 23, 2007. 

                  36
                     Ibid., p. 3.



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)         6
                  record of disclosures shall be maintained for all required Privacy Act
                  disclosure.”37
                  Data Agreement and Data Shipping Tracking System (DADSS). CMS uses
                  DADSS as an automated database to track and account for approved data
                  requests, DUAs, and disclosures under the Privacy Act and its policies.
                  DADSS generates a DUA tracking number for each approved data request,
                  which CMS uses to track the data disclosed to an entity. DADSS contains
                  some, but not all, of the same information as the DUA, updated DUA, and
                  DUA addenda.
                  For approved data requests, CMS enters information from the DUA, the
                  updated DUA, and the DUA addendum into DADSS. CMS also enters
                  additional information in DADSS, such as the type of entity requesting the
                  data; routine use for which the data is being disclosed; DUA extension
                  date and number of extensions, if applicable; and data disclosed to the
                  entity. CMS, however, does not keep electronic copies of the DUA,
                  updated DUA, or DUA addendum in DADSS. Hard copies of the DUA
                  and DUA-related documents are kept in a user agreement file.
                  CMS uses DADSS to send automated emails reminding entities about
                  upcoming DUA expiration dates. The emails are sent 90, 60, and 30 days
                  prior to the expiration date.
                  DUA closure or extension. CMS policy requires that entities properly
                  close their DUAs or request to extend them on or before the expiration
                  dates specified in the DUAs.38 Entities may close their DUAs prior to the
                  expiration dates when they no longer need the data. During the period of
                  our review (July through November 2011), CMS required that to properly
                  close a DUA, entities return the data39 or complete a certificate of data
                  destruction form (referred to as data destruction form).40 By completing
                  and submitting the data destruction form, entities certified that they
                  destroyed all data, and any copy of the data, listed in the DUA.
                  CMS required that to request extensions entities submit written requests—
                  typically via email—explaining why extensions were needed.41 CMS



                  37
                     Ibid., p. 4.

                  38
                     Ibid., p. 6.

                  39
                     Returned data are to be accompanied with a cover letter indicating the study or project 

                  name and the name of the data being returned. 

                  40
                     CMS, Form CMS-R-0235, p. 3; see also Certificate of Data Destruction for Data
                  Acquired from CMS, Form CMS-10252.
                  41
                     CMS, DUA – Extensions and Closures. Accessed at
                  http://www.cms.gov/PrivProtectedData/27_DUA-Extensions_Closures.asp on
                  June 22, 2011.


Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)               7
                  indicated that it would not approve new data requests from entities with
                  expired DUAs.
                  Related Work
                  This evaluation is part of a body of Office of Inspector General (OIG)
                  work on privacy and the protection of personally identifiable information.
                  OIG has conducted work related to medical identity theft42 and the HIPAA
                  Security Rule.43 In addition, OIG is concurrently conducting work on the
                  HIPAA Privacy Rule44 and the Health Information Technology for
                  Economic and Clinical Health Act (HITECH) Breach Notification Rule.45
                  In 2012, the Government Accountability Office (GAO) provided
                  Congressional testimony on the Federal Government’s use and collection
                  of personally identifiable information.46 GAO recommended that
                  Congress consider amending applicable privacy laws to address
                  vulnerabilities arising from increased dependence on information
                  technology. Such vulnerabilities can result in compromising sensitive
                  personal information.

                  METHODOLOGY
                  Scope
                  We reviewed data requests approved or renewed by CMS between
                  September 2006 and August 2011. We selected this 5-year timeframe to
                  account for DUAs that were active for more than 1 year. We reviewed
                  only approved data requests entered in DADSS.
                  We limited our review to approved data requests from health-related
                  SORs. Examples of health-related SORs include those that maintain
                  beneficiary or provider claims information. We did not include approved
                  data requests from non-health-related SORs, such as those that maintain
                  information on employee access to CMS facilities and individuals
                  ordering provider educational materials.



                  42
                     OIG, Breaches and Medical Identity Theft Involving Medicare Identification Numbers, 

                  OEI-02-10-00040, October 2012. 

                  43
                     OIG, Nationwide Rollup Review of the Centers for Medicare & Medicaid Services 

                  Health Insurance Portability and Accountability Act of 1996 Oversight, A-04-08-05069, 

                  May 2011. 

                  44
                     OIG, Office for Civil Rights (OCR) Oversight of the HIPAA Privacy Rule, 

                  OEI-09-10-00510. 

                  45
                     OIG, OCR Oversight of Covered Entities’ Compliance with the HITECH Breach

                  Notification Rule, OEI-09-10-00511. 

                  46
                     GAO, Federal Law Should Be Updated to Address Changing Technology Landscape, 

                  GAO-12-96IT. Accessed at http://www.gao.gov/assets/600/593146.pdf on 

                  October 9, 2012. 



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)          8
                  Sample Selection
                  We used the DUA tracking number generated by DADSS to identify our
                  population of approved data requests. Our population consisted of
                  5,108 approved data requests. We selected a simple random sample of
                  150 approved data requests from this population using the DUA tracking
                  number. Our sample contains 396 data file requests. These data files
                  come from 19 SORs. We project our findings to our population of
                  approved data requests. See Appendix A for a table listing the confidence
                  intervals.
                  Data Collection and Analysis
                  We used the following data sources for our evaluation: (1) CMS policies
                  and procedures, (2) CMS staff interviews, (3) SOR notices, and (4) user
                  agreement files, i.e., DUA and/or DUA-related documents.
                  CMS policies and procedures. We reviewed CMS’s policies and
                  procedures to understand CMS’s process for approving data requests,
                  DUA extensions, and DUA closures. We also reviewed CMS’s policies
                  and procedures for the disclosure and accounting of data.
                  CMS staff interview. We conducted a structured interview with CMS staff
                  responsible for approving data requests and the disclosure and accounting
                  of data. We asked CMS staff how they approved data requests, granted
                  DUA extensions, closed DUAs, and accounted for the disclosures.
                  SOR notices. We reviewed each of the SOR notices associated with our
                  sample to identify the routine uses allowed for the disclosure of the data.
                  User agreement files. We requested paper or scanned versions of the
                  DUAs and any DUA-related documents associated with each approved
                  data request in the sample. For the purposes of this report, we refer to
                  each set of DUA and/or its corresponding DUA-related documents as a
                  user agreement file. The number of user agreement files corresponds with
                  the number of approved data requests in our sample. A DUA and/or its
                  DUA-related documents, such as the updated DUA, DUA addenda,
                  DADSS documentation, requests for extensions, and data destruction
                  forms, constitute a user agreement file.
                  User Agreement Files Analysis
                  We analyzed the user agreement files on three levels—the user agreement
                  file level, DUA level, and data file level.
                  User agreement file level. We reviewed the documents in the user
                  agreement files to determine the purpose for which the data were
                  requested. We reviewed the routine use category on the DADSS
                  documentation to identify the purpose of the data request. We calculated
                  the percentage of approved data requests that were requested under CMS’s


Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   9
                  routine use categories. Also, we reviewed DADSS documentation in the
                  user agreement files to determine what types of data CMS disclosed to
                  entities. We identified and calculated the percentages of the types of data
                  requested using the SORs listed in the DADSS documentation.
                  We reviewed the documents in the user agreement files to determine
                  whether the approved data requests, as documented in DADSS, had a
                  DUA on file. We calculated the percentage of user agreement files that did
                  not include the DUA. Of these user agreement files that were missing a
                  DUA, we calculated the percentage that had DADSS and DUA-related
                  documents and the percentage that had only DADSS documentation. We
                  also calculated the percentage of user agreement files that did not have a
                  DUA, DADSS documentation, and any other DUA-related documents.
                  We reviewed the user agreement file to identify documentation of requests
                  for extensions from an entity. We calculated the percentage of user
                  agreement files that did not include any documentation of the entity
                  requesting to extend their DUA.
                  DUA level. We reviewed the expiration dates of the DUAs associated with
                  our sample of approved data requests. We identified the expiration dates
                  for each DUA and noted inconsistencies, if any, between the expiration
                  date listed on the DUA and that in the DADSS documentation. We
                  calculated the percentage of DUAs that were expired and not closed
                  properly as of November 17, 2011. This is the date for which we collected
                  the user agreement files from CMS. In addition, we calculated how long
                  the DUAs have been expired.
                  We identified DUAs that had inconsistent expiration dates between the
                  DUA and DADSS documentation. We calculated the percentage of DUAs
                  for which the DUA and the DADSS documentation had inconsistent
                  expiration dates.
                  Data file level. To determine whether CMS disclosed the appropriate data
                  file requested by the entities, we compared the data file on the DUAs or
                  updated DUAs with the data file listed on the DADSS documentation. We
                  used the DUAs and updated DUAs to identify the data file requested by
                  the entity. We used the DADSS documentation to identify the data file
                  disclosed to the entity. We calculated the percentage of data files that did
                  not match the data file requests on the DUAs or updated DUAs.
                  Limitations
                  Our analysis was limited to the information provided by CMS and the
                  information on the DUAs, DUA-related documents, and DADSS. We did
                  not contact the entities that were in our sample of approved data requests
                  to verify what data were disclosed to them. Further, we did not contact the



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   10
                  entities to determine whether each needed to submit a data destruction
                  form prior to its DUA’s expiration date because it no longer needed the
                  data. We did not determine whether the data disclosures violated the
                  Privacy Act.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   11
                  FINDINGS
                  For at least 98 percent of all approved data requests,
                  CMS’s data disclosures were consistent with the
                  routine uses
                  For 98 percent of all approved data requests in our sample, DADSS
                  documentation indicated that CMS’s data disclosures were consistent with
                  the routine uses identified in the SOR notices. Of the 98 percent,
                  46 percent were for the routine use of Medicare cost-reporting data
                  requested by hospitals that may be entitled to DSH payments.47
                  Additionally, 33 percent of approved data requests were for research
                  purposes, 18 percent were for routine use by Federal agencies, and
                  4 percent were for routine use by State agencies.48
                  For the remaining 2 percent of all approved data requests in our sample, it
                  is unknown whether the disclosures were consistent with the routine uses.
                  None of these approved data requests had the DUAs on file. In two
                  instances, DADSS documentation was also not available. Without the
                  DUA and DADSS documentation, it would be difficult for CMS to
                  identify what the purpose of the request was or what data were requested
                  or disclosed. In another instance, the data disclosure was listed as “Other
                  data (specify)” in the DADSS documentation. However, there was no
                  indication of the specific data released to the entity. Thus, CMS would
                  not know what data were disclosed.

                  CMS disclosed data files not requested in the DUAs or
                  updated DUAs
                  Five percent of all data files disclosed by CMS were not requested in the
                  DUAs or updated DUAs associated with our sample of approved data
                  requests.49 The data were disclosed to Federal agencies and researchers.
                  Some of the disclosed data were outside the date ranges indicated on the
                  DUAs or updated DUAs. In other instances, an entity requested a specific
                  NCH file in the DUA but DADSS documentation indicated that a different
                  NCH file was disclosed. Most of the data disclosed were from the NCH
                  and EDB SORs. The remaining data came from various SORs that
                  included Medicare provider, beneficiary, drug, and payment data.



                  47
                     This percentage combines all routine use categories used by CMS for DSHs and CMS 

                  components requesting Medicare cost-reporting data on behalf of DSHs.

                  48
                     Because of rounding, these percentages do not add up to 100 percent. 

                  49
                     The DUA or updated DUA may include a request for a data file from more than one 

                  SOR.



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)        12
                  One-third of all user agreement files did not include
                  the DUAs
                  CMS policy requires a DUA for data disclosures; however, CMS did not
                  have the DUAs on file for 33 percent of all user agreement files associated
                  with our sample of approved data requests.50 Among the 33 percent, 18
                  percent had DADSS documentation and other DUA-related documents.
                  Seventy-eight percent of user agreement files that did not have the DUAs
                  had only DADSS documentation. No other documents, such as the
                  updated DUA, DUA addenda, and other DUA-related documents, were
                  included in those user agreement files. For the remaining 4 percent, CMS
                  had approved the requests and assigned DUA tracking numbers but could
                  not account for the DUAs, DUA-related documents, or DADSS
                  documentation in the user agreement files. According to CMS staff, the
                  DUAs or DUA-related documents may have been misfiled or misplaced.
                  See Table 1 for the percentage of user agreement files without the DUAs,
                  DUA-related documents, or DADSS documentation.
                  Table 1: User Agreement Files Without the DUAs

                                                                                                 Percentage of
                       User agreement file documents                                            user agreement
                                                                                                          files
                       No DUA but DADSS documentation and DUA-related documents were in
                                                                                                          18%
                       the user agreement file
                       No DUA and only DADSS documentation were in the user agreement file                78%
                       No DUA, no DUA-related documents, and no DADSS documentation
                                                       51                                                   4%
                       were in the user agreement file
                   Source: OIG analysis of user agreement files, 2012.




                  Although, CMS can use DADSS to identify whom the data were disclosed
                  to, what type of data was disclosed, and for what purpose CMS disclosed
                  the data, DADSS would not have the signed DUA, which includes the
                  agreed upon terms and conditions that govern the disclosure. In addition,
                  the absence of a DUA may limit CMS’s ability to verify what data were
                  requested, for what purpose the data were requested, how long the data
                  may be retained, and who is responsible for and may use the data.
                  Specifically, if CMS entered inaccurate or incomplete information from
                  the DUA into DADSS, CMS would be limited to relying on the
                  information available in DADSS or would need to follow up with the

                  50
                     DADSS generates a DUA tracking number for each approved data request, which CMS
                  uses to track the data disclosed to an entity. 

                  51
                     Although DUA tracking numbers for these approved data requests were entered in

                  DADSS at the time of our sample selection, CMS did not provide OIG with any

                  associated documentation from the user agreement files, such as DADSS documentation, 

                  for review.



Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)                13
                  entity to verify information that may have been included in the DUA or
                  DUA-related documents.

                  CMS granted DUA extensions without documentation
                  of requests from the entities
                  For 29 percent of the user agreement files associated with our sample of
                  approved data requests, CMS lacked documentation of a request for a
                  DUA extension. Although CMS did not have any documentation, it
                  granted DUA extensions to entities. The entities for which CMS granted
                  the extensions included researchers and government agencies. The
                  amount of time for which the extensions were granted is unknown because
                  no previous expiration dates were noted in the DADSS documentation or
                  the DUAs were not on file. Additionally, some of these entities had
                  already requested extensions prior to receiving additional extensions from
                  CMS.

                  Fifteen percent of all DUAs were expired and not
                  closed properly
                  Fifteen percent of all DUAs associated with our sample of approved data
                  requests were both expired and not closed properly by the entities in
                  accordance with CMS policy. None of these entities submitted data
                  destruction forms. Further, there was no documentation in the user
                  agreement file indicating that the entities returned the data. The data
                  requested under these expired DUAs remain with the entities. Of these
                  DUAs, 48 percent have been expired for almost a year and the remaining
                  52 percent have been expired for a year or more. Three entities that had
                  requested and received extensions still had expired DUAs.
                  Additionally, 13 percent of all DUAs associated with our sample of
                  approved data requests had DADSS documentation with expiration dates
                  that were not consistent with those on the DUAs. The difference between
                  the expiration dates on the DUAs and in the DADSS documentation
                  ranged from 3 weeks to 3 years. In eight cases, the expiration dates in the
                  DADSS documentation came before the expiration dates on the DUAs.




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   14
                  CONCLUSION AND RECOMMENDATIONS
                  For at least 98 percent of all approved data requests in our sample, CMS’s
                  disclosures of records were consistent with the routine uses identified in
                  the SOR notices. For the remaining 2 percent, it was unknown whether
                  the disclosures were consistent with the routine uses. Five percent of all
                  data files disclosed by CMS were not requested in the DUAs or updated
                  DUAs. CMS policy requires a DUA for data disclosures; however, CMS
                  did not have the DUAs on file in 33 percent of all the user agreement files.
                  For 29 percent of user agreement files, CMS lacked documentation of a
                  request for a DUA extension. Fifteen percent of all DUAs associated with
                  our sample of approved data requests were both expired and not closed
                  properly by the entities in accordance with CMS policy. Further, 13
                  percent of DUAs associated with our sample of approved data requests
                  had expiration dates inconsistent with those in DADSS.
                  Overall, CMS’s data disclosures are consistent with the routine uses
                  identified in the SOR notices. However, CMS’s system of tracking and
                  accounting for disclosures needs improvement. The Privacy Act requires
                  that CMS keep an accurate accounting of the disclosed data. Although
                  CMS may have a record of the approved data request in DADSS, it would
                  not have the signed DUA, which contains the agreed-upon terms and
                  conditions that govern the disclosures. Also, the DUA is necessary to
                  ensure compliance with the accounting requirements under the Privacy
                  Act and the additional safeguards in CMS’s policy. CMS is working
                  towards upgrading DADSS with the Enterprise Privacy Policy Engine
                  (EPPE) system, an electronic information system designed to provide a
                  traceable record of CMS’s disclosures. Without accurate accounting,
                  vulnerabilities exist in CMS’s tracking and accounting of data disclosures.
                  We recommend that CMS:
                  Develop a Process To Ensure That the Data Requested Are the
                  Ones Disclosed to the Entity
                  CMS should develop a process to ensure that the disclosed data are the
                  ones requested by the entity. CMS could integrate an electronic form in
                  DADSS to track and compare what data were requested and what data
                  were disclosed to the entity. When additional data requests are made
                  under the same DUA, CMS could add the request and disclosure on the
                  electronic form to track and account for the data. Further, when using the
                  “Other data (specify)” category, CMS could specify on the electronic form
                  what data were requested and disclosed to the entity.




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   15
                  Ensure That the DUA and DUA-Related Documents Are in a
                  User Agreement File
                  CMS should ensure that all required DUA and DUA-related documents,
                  such as the updated DUA, requests for extensions, and data destruction
                  forms, are in a user agreement file.
                  CMS could use DADSS or another system to electronically store or file
                  the DUAs and DUA-related documents. Electronic storage could
                  potentially prevent paper DUAs and DUA-related documents from being
                  misplaced or misfiled. Currently, CMS is working on a paperless user
                  agreement submission process to help with electronic filing.
                  Ensure That Entities Submit the Required Documents To
                  Properly Close Their DUAs
                  CMS should ensure that entities submit the required documents to
                  properly close their DUAs. In June 2012, CMS made changes to its DUA
                  closure policy. CMS has replaced the data destruction form with a
                  certificate of disposition form. Entities can use the certificate of
                  disposition form to close DUAs by indicating that they are destroying all
                  the data listed in the DUA or are reusing all or some of the data in other
                  DUAs. Additionally, CMS should not rely solely on the automated
                  expiration date email reminders. CMS should continue to follow up with
                  entities that have expired DUAs.
                  Use a Standardized, Documented Process for Requesting and
                  Approving DUA Extensions
                  During the period of our review, CMS relied on emails from entities to
                  request extensions on their DUAs. However, email requests may be lost,
                  deleted, or misfiled, leaving CMS without any proof that the entities
                  requested extensions. Instead of an emailed request, CMS could require
                  that entities request extensions using the certificate of disposition form.
                  CMS could ensure that extension requests are approved only when the
                  entities submit completed certificate of disposition forms. The forms
                  could include information that entities provided in their emailed requests
                  for extension. The use of one form to close or extend a DUA could
                  streamline CMS’s process for tracking the status of the approved data
                  requests, DUAs, and disclosed data.
                  Ensure Consistent Expiration Dates Between the DUA and
                  DADSS
                  CMS should ensure that the expiration date entered in the DUA is
                  consistent with that in DADSS. If expiration dates are incorrect, CMS
                  may fail to send email reminders about approaching expiration dates or
                  may email entities the wrong dates.




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   16
                  Recent changes by CMS could address some of the problems we identified
                  with the expiration dates. CMS has limited the timeframe for which
                  entities may retain the data. DUAs are set to expire 1 year from the
                  approval date. An entity must revalidate its DUA annually with CMS if
                  the data are needed after the initial expiration date. CMS does not limit
                  the number of times that an entity may request an extension.




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   17
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with all five of our recommendations.
                  CMS concurred with our first recommendation and stated that it is
                  replacing and upgrading DADSS. CMS explained that the replacement
                  system, the EPPE system, is designed to provide a 100-percent-traceable
                  record of CMS’s data disclosures. Although the EPPE system is designed
                  to trace the records disclosed, CMS should ensure that the data requested
                  are the ones that are disclosed to the entity.
                  CMS concurred with our second recommendation and stated that the
                  EPPE system will maintain an automated filing of all DUA-related
                  documents.
                  CMS concurred with our third recommendation and stated that the EPPE
                  system will provide a central catalog of what data were disclosed and to
                  whom they were disclosed. While the EPPE system is designed to
                  maintain an accounting of all DUA-related actions and establish an
                  automated workflow for approval of access to data, CMS should
                  implement a process to ensure that entities submit the required documents
                  to properly close their DUAs.
                  CMS concurred with our fourth recommendation and stated that the EPPE
                  system is being designed to standardize the process for an automated
                  accounting of all DUA-related actions. CMS should ensure that the EPPE
                  system will include a process for standardizing the request and approval of
                  DUA extensions.
                  CMS concurred with our fifth recommendation and stated that it will use
                  the EPPE system to ensure consistent expiration dates between the DUA
                  and DADSS. CMS explained that the EPPE system is being designed to
                  provide consistency in the accounting of all DUA-related actions.
                  See Appendix B for the full text of CMS’s comments.




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   18
                  APPENDIX A
                  Point Estimates and Confidence Intervals
                  We calculated the point estimates and confidence intervals for data points
                  from our sample of approved data requests. The sample sizes, point
                  estimates, and 95-percent confidence intervals are provided for the
                  following:
                  Table A-1: Point Estimates and Confidence Intervals

                                                                                                                     95-Percent
                                                                                                       Point
                    Estimate Description                                          Sample Size                        Confidence
                                                                                                    Estimate
                                                                                                                        Interval

                    Percentage of approved data requests for which the
                    Centers for Medicare & Medicaid Services’ (CMS)         150 approved data
                                                                                                      98.0%        94.3%–99.6%
                    disclosure of data was consistent with the routine               requests
                    uses
                    Percentage of approved data requests for which the      147 approved data
                    routine use was providing the Medicare cost-reporting   requests that were
                                                                                                      45.6%        37.4%–53.7%
                    data requested by hospitals that may be entitled to        consistent with
                    DSH payments                                                  routine uses
                                                                            147 approved data
                    Percentage of approved data requests for which the      requests that were
                                                                                                      32.7%        25.0%–40.3%
                    routine use was research                                   consistent with
                                                                                  routine uses
                                                                            147 approved data
                    Percentage of approved data requests for which the      requests that were
                                                                                                      17.7%        11.9%–24.8%
                    routine use was use by Federal agencies                    consistent with
                                                                                  routine uses
                                                                            147 approved data
                    Percentage of approved data requests for which the      requests that were
                                                                                                       4.1%           1.5%–8.7%
                    routine use was use by State agencies                      consistent with
                                                                                  routine uses
                    Percentage of approved data requests for which it is
                                                                            150 approved data
                    unknown whether CMS’s disclosure of data was                                       2.0%           0.4%–5.7%
                                                                                     requests
                    consistent with the routine uses
                    Percentage of data files disclosed by CMS but not
                                                                                  396 data files       5.1%           1.5%–8.6%
                    requested in the DUA or updated DUA
                    Percentage of user agreement files that did not                 150 user
                                                                                                      33.3%        25.7%–41.0%
                    include a DUA                                              agreement files
                    Of user agreement files that did not include a DUA,
                    percentage of user agreement files that had Data        50 user agreement
                    Agreement and Data Agreement and Data Shipping             files that did not     18.0%          8.6%–31.4%
                    Tracking System (DADSS) documentation and other               include a DUA
                    DUA-related documents
                    Of user agreement files that did not include a DUA,     50 user agreement
                    percentage of user agreement files that had only           files that did not     78.0%        64.0%–88.5%
                    DADSS documentation                                           include a DUA
                    Of user agreement files that did not include a DUA,     50 user agreement
                    percentage of user agreement files that had neither        files that did not      4.0%          0.5%–13.7%
                    DADSS documentation nor DUA-related documents                 include a DUA
                    Percentage of DUAs for which CMS extended the
                    expiration dates without requests for extensions from            150 DUAs         28.7%        21.4%–36.0%
                    the entities
                    Percentage of DUAs that were both expired and not
                                                                                     150 DUAs         15.3%        10.0%–22.1%
                    closed properly
                    Of the DUAs that were both expired and not closed       23 DUAs that were
                    properly, percentage of DUAs that were expired for        both expired and        47.8%        25.7%–69.9%
                    almost a year                                           not closed properly
                                                                                                       Continued on next page




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)                        19
                  Table A-1: Point Estimates and Confidence Intervals
                  (Continued)

                                                                                                               95-Percent
                                                                                                      Point
                    Estimate Description                                            Sample Size                Confidence
                                                                                                   Estimate
                                                                                                                  Interval

                                                                                   23 DUAs that
                    Of the DUAs that were both expired and not
                                                                                       were both
                    closed properly, percentage of DUAs that were                                    52.2%    30.1%–74.3%
                                                                                 expired and not
                    expired for a year or more
                                                                                 closed properly
                    Percentage of DUAs that had no expiration
                                                                                       150 DUAs      10.7%    6.2%–16.7%
                    dates in the DUA or DADSS documentation
                    Percentage of DUAs for which the DUA and
                    DADSS documentation had inconsistent                               150 DUAs      12.7%    7.8%–19.1%
                    expiration dates
                  Source: Office of Inspector General analysis of user agreement files, 2012.




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)                        20
                              APPENDIX B
                              Agency Comments



    ~':ls£1lUCt;1,~




  (~                    DEPARTMENT OF HEAL1H & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                                 Administrator
                                                           JUN 1 8 2013                          Washington, DC 20201




                      TO: 	          Daniel R. Levinson
                                     Inspector General

                      FROM: 	        Marilyn Ta~!mer
                                                          /S/
                                     Administrator

                      SUBJECT: 	 Office oflnspector General (OIG) Draft Report- CMS' Disclosure and
                                 Accounting ofData Under the Privacy Act, OEI-09-11-00430


                      Thank you for the opportunity to review and comment on the above mentioned OIG draft report.
                      The Centers for Medicare & Medicaid Services (CMS) appreciates the contributions and
                      valuable input by the OIG. The draft report assessed CMS' disclosure and accounting of data
                      under the Privacy Act. The information in the report wiiJ help inform our administration of
                      CMS' implementation of the Privacy Act.

                      We are continuously working to improve our implementation of the Privacy Act and
                      accountability for personally identifiable information (PII) disclosures from CMS' systems of
                      records (SOR). The draft report contained five recommendations for CMS. We are addressing
                      the recommendations in this response.

                      OIG Recommendation

                      CMS develop a process to ensure that the data requested are the ones disclosed to the entity.

                      CMS Response

                      We concur with this recommendation. CMS is currently in the process of replacing and
                      upgrading the Data Agreement and Data Shipping Tracking System which CMS uses to track the
                      disclosures of CMS PII. The replacement system, the Enterprise Privacy Policy Engine (EPPE),
                      is designed to provide a 100% traceable record ofCMS' PII disclosures.

                      OIG Recommendation

                      CMS should ensure that the DUA and DUA-related documents are in a user agreement file.

                      CMS Response

                      We concur with this recommendation. CMS' EPPE system is designed to maintain a 100%
                      automated filing of all DUA related documentation.




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)                                               21
Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   22
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Timothy Brady, Regional
                  Inspector General for Evaluation and Inspections in the San Francisco
                  regional office, and Michael Henry, Deputy Regional Inspector General.
                  Abby Lopez served as the project leader for this study. Other Office of
                  Evaluation and Inspections staff from the San Francisco regional office
                  who conducted the study include Camille Harper. Central office staff who
                  provided support include Clarence Arnold, Kevin Manley,
                  Christine Moritz, and Tasha Trusty.




Disclosure and Accounting of Protected Records by CMS Between 2006 and 2011 (OEI-09-11-00430)   23
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
